DGE F 1325.8,
',08-93)
United States Government                                                           Department of Energy


memorandum
        DATE:    March 5,   2003
    REPLY TO
    ATTN OF:     IG-30 (A02CF038)                                     Audit Report No.: OAS-L-03-12

    SUBJECT:     Audit of the "Department of Energy's Safety Bases for Nuclear Facilities"
           TO:   Assistant Secretary for Environmental Management, EM-1
                 Administrator, National Nuclear Security Administration, NA-1
                 Director, Office of Nuclear Energy, Science and Technology, NE-1
                 Director, Office of Science, SC-1


                 INTRODUCTION AND OBJECTIVE

                 The Department of Energy (Department) has-more than 300 nuclear facilities that
                 contain radioactive and/or fissionable materials in such form and quantity that a
                 nuclear or nuclear explosive hazard potentially exists. Due to continued safety-
                 related problems at its nuclear facilities, in 2001, the Department enacted 10 CFR
                 830 (Rule), which requires contractors to submit a safety basis for their respective
                 facilities by April 10, 2003. The safety basis analyzes safety at a nuclear facility
                 and establishes the hazard controls needed to provide reasonable assurance that it
                 can be operated safely. To ensure that each facility safety basis is adequate, the
                 Rule also requires the Department to perform a timely and proper review of the
                 documents received.

                 As of December 2001, less than 16 months before the due date, about 20 percent of the
                 required documents had been submitted. Therefore, we initiated this audit to determine
                 whether (1) the Department's contractors would meet the April 10, 2003 requirement, and
                 (2) the Department can ensure timely and proper review and implementation of safety
                 basis documents.


                 CONCLUSIONS AND OBSERVATIONS

                 Department contractors have made significant progress towards meeting the April
                 10, 2003 due date. A review of safety bases information at 5 selected sites showed
                 that, as of November 2002, only 58 of 144 safety bases (40 percent) had been
                 submitted to the Department. However, since then, the Department and its
                 contractors initiated a number of positive actions to meet the April 2003 deadline,
                 including providing technical assistance and guidance to supplement staff at those
                 sites that were behind schedule and providing contractors with clear expectations.
                 As a result, as of February 2003, about 70 percent of the required safety bases had
                 been submitted, and the Department had granted exemptions for about 4 percent.
Department officials were optimistic that the remaining safety bases would be
submitted on time.

Based on a limited sample of approved safety bases, we found that, on average, the
review and approval process generally did not exceed 90 days. Although the Rule
did not specify a timeframe, most of the program offices we contacted had
established a 90-day review time.

Some Department officials had concerns about the timely implementation of the
hazard controls identified in, the safety documents. There were also concerns about
not having a sufficient number of adequately trained personnel to maintain safety
documentation, and the lack of criteria to address operations at those facilities for
which a safety basis is not submitted by the April deadline. Therefore, to ensure
that its workers, the public, and the environment are adequately protected, the
Department should (1) ensure that all remaining safety bases are completed; (2)
develop criteria to address operations at those facilities for which a safety basis will
not be submitted by April 10, 2003; (3) ensure that hazard controls identified in
safety bases are implemented in a timely manner; and (4) ensure that sufficient
qualified personnel are available to maintain safety documentation.


SCOPE AND METHODOLOGY

The audit was performed from April 2002 to February 2003 at the National Nuclear
Security Administration (NNSA), Germantown, MD; Department of Energy
Headquarters, Washington, DC; and the Oak Ridge Operations Office, Oak Ridge, TN.
We also included information from the following sites: Nevada Operations Office, Las
Vegas, NV; Idaho National Engineering and Environmental Laboratory, Idaho Falls, ID;
Lawrence Livermore National Laboratory, Livermore, CA; and Los Alamos National
Laboratory, Los Alamos, NM. The scope of the audit was limited to determining whether
safety basis will be prepared and submitted by April 10, 2003. Additionally, we sought to
determine whether Departmental managers could review and approve safety bases in a
timely manner.

To accomplish the audit objective, we:

    *   Reviewed Federal and Departmental requirements related to the nuclear facilities;

    *   Reviewed prior external and internal reports regarding nuclear facilities including
        the Federal Managers' Financial Integrity Act;

    * Determined whether annual updates and safety basis were current and up-to-date;

    *   Reviewed task plans to ensure milestones were being met;

    * Discussed nuclear facilities with officials from Department Headquarters, Oak
      Ridge Operations Office, the Office of Environmental, Safety and Health and the
      Defense Nuclear Facilities Safety Board;

                                       2
    * Examined actual annual updates and safety basis studies to verify their existence;
      and,

    *     Reviewed Performance Measures established in accordance with the Government
          Performance and Results Act.

The audit was performed in accordance with generally accepted Government auditing
standards for performance audits, and included tests of internal controls and compliance
with laws and regulations to the extent necessary to satisfy the audit objective.
Accordingly, we assessed the significant internal controls related to the nuclear facilities.
Because our review was limited, it would not necessarily have identified all internal
control deficiencies that may have existed. Additionally, we did not rely extensively on
computer-processed data. In addition, we reviewed the implementation of the
Government Performance and Results Act of 1993, as it related to nuclear facilities. This
review did not assess the quality of safety bases documents submitted by the contractors.

Since no recommendations are being made in this letter report, a formal response is
not required. We appreciate the cooperation of your staff during the audit.




                                                        William S. Maharay
                                                        Assistant Inspector General
                                                         for Audit Services
                                                        Office of Inspector General


cc: Chief of Staff to the Deputy Secretary
    Team Leader, Audit Liaison, ME-1.1
    Director, Policy and Internal Controls Management, NA-66
    Audit Liaison, Environmental Management
    Audit Liaison, Office of Nuclear Energy, Science and Technology
    Audit Liaison, Office of Science
    Audit Liaison, Oak Ridge Operations Office

        Director, Office of Nuclear and Facility Safety Policy




                                        3
DOE F 1325.8
(08-93)
United States Government                                                           Department of Energy


memorandum
       DATE:    March 12, 2003
  REPLY TO
   ATTN OF:     IG-35 (A02CF038)

   SUBJECT:     Final Report Package for Audit Report on "Department of Energy's Safety Bases for Nuclear
                Facilities"

          TO:   Director for Performance Audits and Administration

                Attached is the required final report package on the subject audit. The pertinent details are:

                1. Actual Staff Days: 362

                   Actual Elapsed Days: 310

                   The final report was signed on March 5, 2003. This report was initially prepared to be
                   issued as a Blue Book. However, during the delays in the report writing process,
                   Department officials implemented corrective measures to expedite the safety basis
                   documentation submission process. Consequently, the decision was made to issue this
                   report as a letter report.

                2. Names of OIG audit staff:

                   Assistant Director: David Sedillo
                   Team Leader: Lynda Crowder
                   Auditor-In-Charge: Arlene Hunt
                   Audit Staff: Della Bobian, Tychelle Young

                3. Coordination with Investigations and Inspections: We coordinated our efforts with
                   Investigations and Inspections on May 2002 and March 2003.




                                                        awen;c . Ac erly, Division         ector
                                                       NNSA Audits Division
                                                       Office of Inspector General

                Attachments:
                1. Monetary Impact Report
                2. Audit Project Summary Report
                3. Audit Database Information Sheet
                           MONETARY IMPACT OF REPORT NO.: OAS-L-03-12

      1. Title of Audit:    Department of Energy's Safety Bases for Nuclear Facilities

      2. Region/Office:     NNSA Audits Division/Washington Audit Group

      3. EIGPTS No.:        A02CF038

      4. Type of Audit:

           Financial:         _                                 Performance:        X
              Financial Statement                                 Economy and Efficiency                   X
              Financial Related                                   Program Results
           Other (specify type):

5.

                                                                                                          MGT.                POTENTIAL
         FINDING                    BETTER USED                          QUESTIONED COSTS               POSITION               BUDGET
                                                                                                                               IMPACT
                                            Recurrin
(A)           (B)            (C)    (D)        (E)       (F)        (G)           (H)            (I)       (J)                   (K)
              Title         One    Amount     No.       Total    Questioned   Unsupported       Total   C=Concur                Y=Yes
                            Time    Per       Yrs.     Amount     Portion       Portion                 N=Noncon                N=No
                                    Year                                                                 U=Undec
                                                                                                                                 N




TOTALS--ALL FINDINGS                                                                                        .       ...




      6. Remarks:

      7. Contractor:  None                              10. Approvals:
      8. Contract No.: None                             Division Director & D -4^^.                             S///
      9. Task Order No.:     None                       Technical Advisor & Date            "                   /         /
  03/07/03    FRI 14:44 FAX 65697                                    DOE/OIG WASHINGTON GROUP --             ABQ-AUDITS            1003

                                                Office of the Inspector General (OIG)
                                                   Audit Project Summary Report (APS)


Report run ons                     March 6,       2003 4t43 PM                                                                 Page 1


 Audit#s A02CF038         Ofcs        CFA     Titles NUCLEAR FACILITIES

                                                           ***'* Milestones ***
                                                -------------        lanned --------------                     Actual
                                              Profile            End of Survey         Revised

 Entrance Conference:                    22-APR-02                 29-APR-02        29-APR-02            29-APR-02

 Survey Completed:                       22-JUL-02                 26-AUG-02            26-AUG-02        26-AUG-02

 Field Work Complete:
 Draft Report Issued:                                              24-FEB-03            31-DEC-02
 Exit Conference:
 Completed with Report:                  17-MAR-03                 30-JUL-02       . 31-JAN-03           05-MAR-03        (R   )
 --------- Elapsed Days                            329                    92                  277               310
    -------    Staff Days:                         400                     0                                    362

 Date Suspended:                                              Date Terminated:
 Date Reactivated:                                            Date Cancelled;
 DaysSuspended(Cur/Tot):                    0 (             ) Report Number:   OAS-L-03-12
 Rpt Title:     DEPARTMENT OF ENERGY'S SAFETY BASES FOR NUCLEAR FACILITIES

                                            ****     Audit Codes and Personnel              ****

 Aud Type:    EAE ECONOMY & EFFICIENCY
 Category:    MPA MULTIPROGR. ACTIVITY                                   AD:      84               CROWDER
 DOE-Org:     NNS NATIONAL NUCLEAR SEC                                   AIC:     747              HUNT
 Maj Iss:     035 Not Found                                              HDQ-Mon: 432              GAMAGE
 Site:        MRA MULTI-REGION AUDIT                                     ARM:     152              SEDILLO

                                                  **** Task Information            **

       Task No:
       Task Order Dt:                                           CO Tech. Rep;
       Orig Auth Hrs:                                           Orig Auth Costs:
       Current Auth:                                            Current Auth Cost:
       Tot Actl IPR Hr:                                         Tot Actl Cost:

                                                     ****       Time Charges ***

               Emp/Cont. Name                 NRImdays               Last Date
               YOUNG,     T                        1.8               27-JUL-02
               CROWDER,        L                  24.9               22-FEB-03
               BOBIAN,     D                   162.3                 22-FEB-03
               HUNT, A                         173.1                 08-MAR-03
                Total:                         362.1
                                                    *.**   ATC Information ****
 Ate     Ate Rank       Atcdesc
                AUDIT DATABASE INFORMATION SHEET


1. Project No.: A02CF038

2. Title of Audit: Department of Energy's Safety Bases for Nuclear Facilities

3. Report No./Date: OAS-L-03-12         March     2•003

4. Significant Issue: Safety & Health

5. Presidential Mgmt Initiative: N/A

6. Secretary Priority/Initiative: Yes, Safety

7. Program Code: SC-6, NN-3, EM-1, NE, EH-1

8. Location/Sites: Headquarters, Oak Ridge, Tennessee

9. Finding Summary: Department contractors have made significant progress
   toward meeting the April 10, 2003 due date and Departmental officials were
   optimistic that the remaining safety bases would be submitted on time. However,
   some Department officials had concerns about the timely implementation of the
   hazard controls identified in the safety documents, not having a sufficient number
   of adequately trained personnel to maintain safety documentation, and the lack of
   criteria to address operations at those facilities for which a safety basis is not
   submitted by the April deadline.

10. Keywords: (include as many as you like)

       a.   Safety Basis (SB)
       b.   Nuclear Facilities
       c.   Hazard Controls
       d.   10CFR830
       e.   Safety Documentation
       f.   Documented Safety Analysis (DSA)
       g.   Safety Analysis Report (SAR)
       h.   Safety Evaluation Report (SER)
       i.   Technical Safety Requirements (TSR)
